NO.

 

 

IN THE
UNITED STATES SUPREME COURT
OCTOBER TERM 2020

ANTONIO LOPEZ,
Petitioner,

Vv.

THE STATE OF TEXAS,
Respondent.

On Petition for Writ of Certiorari
To the Texas Court of Criminal Appeals

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
WITHOUT EXECUTED AFFIDAVIT OF INDIGENCY

 

 

TO THE HONORABLE JUSTICES OF THE UNITED STATES SUPREME COURT:

COMES NOW Petitioner Antonio Lopez, by and through his attorney of record, Robin
Norris, and prays that the Court grant him leave to proceed in forma pauperis in the above styled and
numbered cause. Petitioner is indigent and was represented by undersigned appointed counsel in the

courts of Texas throughout the proceedings from which this petition for writ of certiorari is taken.
A declaration of Petitioner in the form prescribed by Federal Rules of Appellate Procedure, Form
4, does not accompany this motion because counsel was appointed under authority of Texas Code
of Criminal Procedure, article 26.04. A copy of the court order appointing counsel is appended to
this motion.

WHEREFORE, premises considered, Petitioner prays that the Court grant him leave to

proceed in forma pauperis in this cause without an executed affidavit of indigency.

Respectfully Submitted,

ROBIN NORRIS

Texas Bar No. 15096200
2408 Fir Street

El Paso, Texas 79925
(915) 329-4860
robinnorris@outlook.com

ATTORNEY FOR PETITIONER
IN THE JAIL MAGISTRATE

EL PASO COUNTY, TEXAS
THE STATE OF TEXAS
SO: 9528280
VS. ARRESTED: 08/01/12

WARRANT: M12W7019
ANTONIO LOPEZ
DOB: 03/19/1985
OFFENSE: CAPITAL MURDER
BOND AMT: NOBOND

ORDER OF APPOINTING ATTORNEY

DEAR NORRIS, ROBIN:

YOU HAVE BEEN APPOINTED TO REPRESENT THE DEFENDANT IN THE ABOVE STYLED AND NUMBERED CAUSE.
THIS APPOINTMENT CONTINUES UNTIL CHARGES ARE DISMISSED, THE DEFENDANT IS ACQUITTED, APPEALS ARE
EXHAUSTED TO THE 8" COURT OF APPEALS, OR IN THE CASE OF A DEATH PENALTY CASE, COMPLETION OF THE
DIRECT APPEAL TO THE COURT OF CRIMINAL APPEALS. THE ATTORNEY MAY BE RELIEVED OF THIS APPOINTMENT OR
REPLACED BY OTHER COUNSEL ONLY AFTER A FINDING OF GOOD CAUSE IS ENTERED ON THE RECORD (ART. 26.04 (j)
(2). YOU ARE NOT RELIEVED OF THIS APPOINTMENT AND CANNOT BE RELIEVED OF THIS DUTY EVEN BY
SUBSTITUTION WITHOUT A MOTION AND ORDER SIGNED BY THE COURT (SEE LOCAL RULE 5.03).

\CHED IS THE “A IRNEY ” FORM WHICH MUST BE FILLED OUT, NED BY
DEFENDANT AND ATTORNEY AND RETURN BY FAX AT (546-2019) OR HAND-DELIVER/MAIL TO COUNCIL
OF JUDGES ADM. 500 E. SAN ANTONIO #101, EL PASO TX_79901 BY THE END OF THE FIRST WORKING

AY FOLLOWING THE APPOINT! NOTIFICATION. .

AN ATTORNEY WHO REFUSES TO ACCEPT A MISDEMEANOR CASE BECAUSE THE CASE HAS NOT BEEN
ACCEPTED, OR THAT THE ATTORNEY HAS TO GO TO THE JAIL ANNEX, WILL BE TAKEN OFF THE MISDEMEANOR
WHEEL PER THE COUNTY COURTS AT LAW ORDER OF JANUARY 8, 2004. ART 26.04 (k).

IF THE DEFENDANT IS IN CUSTODY IN THE EL PASO COUNTY DETENTION FACILITY YOU ARE DIRECTED TO
CONDUCT YOUR INITIAL INTERVIEW WITH THE DEFENDANT WITHIN TWENTY-FOUR (24) HOURS. WHEN THE
FINAL JUDGEMENT IS ENTERED IN THIS CAUSE, PLEASE FILE THE VOUCHER WITH THE TRIAL COURT WITHIN 5 DAYS.
YOU MAY USE ADDITIONAL SHEETS IF NECESSARY. INVESTIGATION AND CERTAIN OTHER EXPENSES MUST HAVE
PRIOR COURT APPROVAL. SEE ATTORNEY REIMBURSEMENT GUIDELINES.

TOME

JAMES T. R, PRESIDING JUDGE
JAIL MAGISTRATE COURT

SIGNED THIS: 4th day of September, 2012.

 
  
   

JAIL; JAIL
FACILITY: DOWNTOWN JAIL 0430
BONDING COMPANY:

PREPARED BY CJA

NORRIS, ROBIN
2408 FIR ST
EL PASO TX 79925
COUNCIL OF JUDGES ADMINISTRATION
EL PASO COUNTY COURTHOUSE
